APPENDIX

i

i

18

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

FEB 16 2021
MOLLY C. DWYER, CLERK

PATRICIA A. McCOLM,

U.S. COURT OF APPEALS

No.

Plaintiff-Appellant,
V.

TRINITY COUNTY; et al.,
Defendants-Appellees.

20-15646

D.C. No.
2:12-cv-01984-MCE-AC
Eastern District of California,
Sacramento
ORDER

Before: CANBY, GRABER, and FRIEDLAND, Circuit Judges,
This court has reviewed the notice of appeal filed April 3, 2020 in the above
referenced district court docket pursuant to the pre-filing review order entered in
docket No. 01-80189. Because the appeal is so insubstantial as to not warrant
further review, it shall not be permitted to proceed. See In re Thomas, 508 F.3d
1225 (9th Cir. 2007). Appeal No. 20-15646 is therefore dismissed.
All pending motions are denied as moot.
This order, served on the district court for the Eastern District of California,
shall constitute the mandate of this court.
No motions for reconsideration, rehearing, clarification, stay of the mandate,
or any other submissions shall be filed or entertained.
DISMISSED.
APPENDIX A

DA/Pro Se

\

FILED
APR 1 7 2020
UNITED STATES COURT OF APPEALS
MoHy C. Dwyer, Clerk U.S. Court Of Appeals
FOR THE NINTH CIRCUIT
Form 24. Motion for Appointment of Counsel yu- '2&eru*?i*r-<. $
Instructionsfor this form: htto:/f\mw.ca9.uscnurts.mv/forms/fnrm24m.'!trwtionspdf

9th Cir. Case Number(s)
Case Name

~

~

McColm v Trinity County

Lower Court or Agency Case Number

2:12-cv-01984-MCE-AC

1.

My name is [PATRICIA A. MCCOLM

2.

I am asking the court to appoint an attorney to help me with this case.

3.

My fee status is as follows (select one):
The district court or this court granted my motion to proceed in forma
' pauperis.
I filed a motion to proceed in forma pauperis but the court has not yet
O
ruled on the motion.
q

O This motion is accompanied by a motion to proceed in forma pauperis.

o I paid the filing fees for this case. However, I cannot afford an attorney
for the following reasons:

4.

Is this a civil appeal or petition for review?
©Yes
ONo
If yes, attach an additional page(s) describing the issues on appeal.

My current mailing address
PO BOX 113
City LEWISTON
Prisoner Inmate or
s

\

Signature [/
7
t

.x

State [CA
imberfi
jO

icable)|
Date APRIL/5'72020

*17

Feedback orfquestions about this

Form 24

Zip Code 96052

Cm? Email us aifovmsQtcaQ.uscoufts.gnv

APPENDIX B

New 12/01/2018

i

Case No.

: ATTACHMENT TO FORM 24.

Motion for Appointment of Counsel

In support of Motion for Appointment of Counsel r.permission and appeal, it is hereby
respectfully requested that this Court take Judicial Notice of:

1) the Notice of Appeal in this action with attachments re facts/issues
on appeal showing
discriminatory prejudice from limitations of disability requiring appointment of counsel and
‘disregard” of merit re causes of action and good cause
for appeal; that in contravention of
Magistrate Judge contention, the First Amended Complaint states

a cause of action and should

not have been dismissed with prejudice under 28 U.S.C. 1915; but given leave to amend with
appointment of counsel to ensure that medically limited persons with disability are not denied
due process and access to the Court by reason thereof; as would appear to have taken place in this
action;

2) all medical verifications/requests for accommodation documents filed under seal in the
U.S. District Court, Eastern District in instant case 2:12-CV-1984 with requests for appointment
of counsel (See Dr. Apperson, M.D., PhD statement dated August 23,

2018 and subsequent

statements re progressive cognitive decline) and for STAY due to retaliatory
prosecution/incarceration by defendants’ design in causing delay to prejudice plaintiff in this
ADA / DFEH retaliation right to sue case;

3) the Magistrate Judge Order (ECF56) and plaintiffs timely motion under FRCP

1

59e/6Ob (EOF 55) from dismissal/judgment on the First Amended Complaint;

regarding which,

the Magistrate Judge denies consideration, an apparent due process violation and manifest
injustice; in particular, because a lie of “still pending” to amend was used to dismiss 2:18-CV02092; thus, apparently misleading this Court into a failure to grant permission to proceed on
appeal in 2:18-CV-02092 (19-16660). Surely this Court does not condone false representations
by its Magistrate Judges to prejudice pro se/disabled plaintiffs by dismissal of his/her case; yet,
the 19-16660 was not allowed to proceed on appeal; apparently, on the false pretense that the
case was dismissed because it was “duplicative” of instant action and that plaintiff should have
amended instant action to include the new facts instead of filing a new case (2:18-CV-02092); a
procedural impossibility and injustice. The two cases should have proceeded together; as the
2018 case was clearly supplemental facts, later in time, to those in instant case.
Appellant seeks appointment of counsel on the motion for appointment of counsel and on
appeal; in that the medical verifications show that assistance is needed to determine and satisfy
the requirements of the Court to achieve a favorable result.
This Court needs to ensure, that misunderstood effects of illness and progressive
disability do not become a discriminatory measure for a District Court to deny a plaintiff with
disability the constitutional right to due process and access to the court in this Country. If
limitations of disability and refusal to afford appropriate time and other accommodation

i

cause

problems for the Court, then appointment of counsel appears to be constitutionally required to
ensure fair and impartial access to the Court.
Your kind consideration is appreciated.

2

1j

UC Davis Medical Center
MIDTOWN NEUROLOGY
3160 Folsom Blvd, Suite 2100
Sacramento CA 95816-7759

August 23, 2018

Patricia McColm
DOB: 6/5/1946
To Whom It May Concern,

paperwork properly for he? ongoSfor
Sh® haS bee"
to SL
state for a civil rights violation4ler9coanitivenmw 33^ 3 comP|ain‘ filed against the
communicate in a linear manner She te not wilif,? |emS make lf very difficu|t for her tr

S25KSSJSS
Sincerely,
iAt

i

■

/

i

uu

4(_

Michelle L Apperson, MD, PhD
(916?7304C-3588CliniCal
°f Neur°'°SV

■'

Case 2:12-cv-01984-MCE-AC

Document 54 Filed 10/15/19

Page 1 of 1

UNITED STATES DISTRICT

COURT
EASTERN DISTRICT OF CALIFORNIA

JUDGMENT IN A CIVIL CASE

PATRICIA A. MCCOLM,

v.

CASE NO: 2:12~CV-01984-MCE-AC

trinity county, et al„

have been

bef°re ^ C°UIt The

IT IS ORDERED AND ADJUDGED
IN ACCORDANCE WITH THE

Marianne Matherly
Clerk of Court
ENTERED: October IS, 2019

by:_Zs/ a vn<,rifnh

Deputy Clerk

Case 2:12-cv-01984-MCE-AC

Document 53 Filed 10/15/19

Page 1 of 2

1
2
3
4
5
6
7

8

UNITED states district court

9

for the eastern district

10

n

OF CALIFORNIA

PATRICIA A. McCOLM,
No. 2:12 -cv-01984 MCE AC (PS)

12

Plaintiff,

13

v.

14 |

ORDER

TRINITY COUNTY, et al„

15

Defendants.

16
17

Plaintiff is proceeding in this

18

action pro se and in forma pauperis.

to a United States Magistrate Judge

The matter was referred

pursuant to Local Rule 302(c)(21)
On March 20, 2019, the magistrate judge filed fi
ndings and recommendations herein
20 which were served
on plaintiff and which contained noti
notice that any objections to the finding,
s and
21
recommendations were to be filed wi
within twenty-one days. ECF No.
43. Plaintiff has filed
22 objections to the findings and recommendations,
accompanied by medical records filed under
23 II seal. ECF Nos. 49, 52.
19

24
ule 304, this
26 I Court finds the findings and recomm
27

analysis.

28

///

case • Having carefully reviewed the

entire file, the
endations to b e supported by the record and by proper

APPENDIX D

1

Mixx^xxrx^x

Case 2:12-cv-01984-MCE-AC

1
2

Document 53 Filed IO/15/19

Accordingly, IT IS HEREBY ORDERED that:
1 • The fmdings and recommendations filed March 20,

3 II ADOPTED IN FULL;
4

3
6
7

8

Page 2 of 2

2019 (ECF No. 43) , are

2. The First Amended Complaint (ECF No.
38) is DISMISSED with prejudice for fail

to state a claim; and
3- The Clerk of the Court is directed to

ure

close the case.

IT IS SO ORDERED.
Dated: October 11, 2019

9
10
MOKK1SON C. ENGLANrfm
UNITED STATES DISTRJCT71

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

i

28
2

Case 2:12-cv-01984-MCE-AC Document 43 Filed 03/20/19 Page 1 of 6
1
2
3
4
5

6
7
8

united states district court

9

for THE EASTERN

DISTRICT OF CALIFORNIA

10

11 I PATRICIA A. McCOLM,
No. 2:12-cv-01984 MCE AC PS

12

Plaintiff,

13

v.

14 |

TRINITY COUNTY, et al„

15

findings and recommendations

Defendants.

16
17

Plaintiff is proceeding pro se, and the action i
" 1S accordingly referred to the magistrate
18 judge by E.D. Cal. R. 302(c)(21). Plaintiff was
previously granted leave to proceed in forma
19 pauperis (“IFP”) pursuant to 28 U.S.C. § 1915.
ECF No. 6. Plaintiffs initial complaint was
20 dismissed with leave to
amend by Magistrate Judge Craig M. Kellison
on February 12,2016.
21 II ECF No. 11. Following several extensions of time at the
request of plaintiff, Magistrate Judge
22 Kellison recommended dismissal of plaintiff s
23 I ECF No 24 Th
0356 f°r l3Ck °f prOSecution on Ja>™ry 12. 2017.

nt,

„r" 'dw v “*ia ^ c ^ “ ■>«
* plPtaW.
;in T r™"'
ECFNo-2!o"M“h2^«'*.^^mdE«d
fo, ««ldo„aon,
„„ ,„po„d
fte _ on
sented

| m«dical records that indicatedplaintiff had. medical condition iha!
27
28

filing an amended complaint. ECF No. 37 at 6

prevented her from timely

■ Plaintiff was given 60 days to file
an amended
complaint (making it due May 28. 2018), with the warning that
no further extensions of time
1
APPENDIX E(1)

Case 2:12-cv-01984-MCE-AC
1

Document 43 Filed 03/20/19 Page 2 of 6

would be granted. Id Plaintiff filed her first amended complaint

2 II The case was reassigned to the undersigned on January 31,

on May 30,2018. ECFNo.38.
2019. ECFNo. 19.1 The First

3

Amended Complaint is now before the court for screening.

4
I. SCREENING
5

A determination that a plaintiff qualifies financially for in forma p
auperis status does not

‘

H,eMmi„FPst.tntere,„ire!fed„I,„urt!lo

II dismiss a case if the action is legally “frivolous ,
or malicious,” fails to state a claim upon which
8 relief may be granted, or seeks monetary relief from
a defendant who is immune from such relief.
9 j 28 U.S.C. § 1915(e)(2). Plaintiff must.
assist the court in determining whether or not the
10 J complaint is frivolous, by drafting the complaint
so that it complies with the Federal Rules of
11
Civil Procedure (“Fed. R. Civ. P ”
). Under the Federal Rules of Civil Procedure, the complaint
12 must contain (1) a “short and plai
am statement” of the basis for federal jurisdiction (that is,, the
13
reason the case is filed in this court,
14| .
.
,
. rather than in a state court), (2) a short and plain statement
14 showing that plaintiff is entitled to relief (that is,
is, who harmed the plaintiff, and in what
way), and
15 (3) a demand for the relief sought.
Fed. R. Civ. P. 8(a). Plaintiff s claims must be set forth
16 simply, concisely and directly. Fed. R.
Civ. P. 8(d)(1).
17
A claim is legally frivolous when it lacks
an arguable basis either in law or in fact.

1® II hJeitzkfl y Williams aon

,o ,

tic

.
--

319’ 325 (1989)' In reviewing a complaint under this standard the
. »,

”0 7

I

of

,eg,ta ^ in the ^ ^

®10

l-ff,»d(3)«a)|v.„do*iofcp„io„s w feM!late490u.s,„327!Von

592 pjd 95<i mo

23

denied, 564 U.S. 1037(2011).

24

////

25
26 I Magistrate fudge

--

"ObjeeSons to Asaigteneul of

»1

2

~

Case 2:12-cv-01984-MCE-AC Document 43 Filed 03/20/19 Page 3 of 6
1

The court applies the same rules of constructi
ion in determining whether the complaint
2
states a claim on which relief can be granted.
Erickson v. Pardns, 551 U.S. 89, 94 (2007) (court
3
must accept the allegations
as true)l Scheuerv. Rhodes 415 u.S. 232,
236(1974) (court must
4 J construe the complaint in the light most favorable to the plaintiff)
• Pro se pleadings are held to a
5
less stringent standard than those drafted by lawyers.
Haines v.
404 u.S. 519, 520
6
(1972), However, the court need not
accept as true conclusory allegations, unreasonable
7 inferences, or unwarranted deductions of fact.
Western Mining Council v. Watt. 643 F.2d 618,
8
624 (9th Cir. 1981). A formulaic recitation
of the elements of a cause of action does
not suffice
9 II to state a claim.
Bell Atlantic Corp. v Twomblv 550 U.S.
544, 555-57 (2007); Ashcroft v. Tqhal
10 II 556U.S. 662, 678 (2009). To state a claim on whi
ch relief may be granted, the plaintiff must

" r™ Trsh“a“a°,aira,ore,ter,h“,spte,b,‘i,s*-*»«*.
A c,alm has fecial plausibility When the plaimiffpleads factual

13

court to draw the reasonable inferenc

14

Mai, 556 U.S. at 678.

15

content that allows the
e that the defendant is liable for the misconduct alleged.”

A pro se litigant is entitled to notice of the deficiencies in the complaint and an
opportunity to amend, unless the complaint’s deficiencies could not be

17

NollwCarlspn^809 F.2d 1446, 1448 (9th Cir. 1987),

18

stated inLopezy. Smith

cured by amendment. See

superseded on other grounds by statute as
203 F.3d 1122 (9th Cir.2000)) (en banc).

19
II. THE COMPLAINT

20
21 II

bV

FirSt Amended Complaint (“FAC”) js 123 pages long (including 41 pages of

22

California, the Trinity County Office of the District Att

23

Office of the Sherriff, and California Highway Patrol

ECF No. 38; id. at 1-2. Plaintiff asserts

”
26

orney, several judges, the Trinity County

Mkiioo

oyment and

Housing Act, and violations of the Ameri

cans with Disabilities Act. Id. at 49-79
Plaintiff alleges that the action arises
out of “retaliatory protectionism”
amongst the many
28 | named defendants. Id, at 2.
Plaintiff is a "senior citizen”
over the age of 40 with several graduate

27

3

Case 2:12-cv-01984-MCE-AC Document 43 Filed 03/20/19 Page 4 of 6
1

degrees. Id, at 5. Plaintiff uses a wheelchair and has a hearing decision from an Administrative

2

Law Judge which determined a “power wheelchair” is medically necessary. Id Plaintiff alleges

3

that she has been mistreated by the above defendants in a great many ways, all apparently related

4

to her activities in the Trinity County Superior Court. She claims that the judges and court

5

employees have harassed her, made it difficult for her to access the court and to file documents,

6

instigated charges being brought against her, and failed to accommodate her disabilities.

7
8
9

III. ANALYSIS
The court notes at the outset that the First Amended Complaint was filed two day

s late,
after previous lengthy delays. In the interests ofjustice, however, the court will overlook the late

10

filing. Having conducted a thorough review of the FAC, the undersigned concludes for the

11

reasons explained below that plaintiff has not stated any claim upon which relief can be g

12
13

The FAC does not cure any of the pleading errors

ranted.

addressed in detail by Judge Kellison’s

initial Findings and Recommendations. See ECF No.

14

11. First, as Judge Kellison explained in
2016, plaintiff cannot bring multiple unrelated claims against unrelated defendants in the same

15

action. ECF No. 11 at 4. Under Rule 20(a)(2), a plaintiff may only

16

sue multiple defendants in the
same action if at least one claim against each defendant arises out of the same “transaction,

17

occurrence, or series of transactions or occurrences” and there is a “question of law or fact

18

common to all defendants.” As with the original complaint, plaintiffs FAC includes over thirty

19

defendants and alleges a series of disconnected and mostly unrelated facts,

20

allegations do not involve the

21

screening.

22
23

See ECF No. 38. The

same transaction or occurrence. This defect requires dismissal on

Second, Judge Kellison informed plaintiff that to state a claim under 42 U.S.C. §
1983, the
complaint must allege an actual connection or link between the actions

24

of the named defendants
and the alleged deprivations of constitutional rights. ECF No. 11 at 4; see Monell v. TWt nf

25

^ial Servs- 436 U.S. 658 (1978); Rizzo v finnA. 423 U.S.

26

27
28

informed that supervisory personnel are

362(1976). Plaintiff was also

generally not liable under § 1983 for the actions of their
employees. Id.; see, Taylor v. List. 880 F.2d 1040,
1045 (9th Cir. 1989) (holding that there is no
respondent superior liability under § 1983). Plaintiff has failed to
correct these deficiencies. For

4

i

Case 2:12-cv-01984-MCE-AC

Document 43 Filed 03/20/19

Page 5 of 6

1

example, she sues defendant Bruce Haney asserting that he i
is responsible for the policy.
2 II procedure, and conduct of his employees.
ECF No. 38 at 10. Plaintiffs specific claims against
3
each defendant are difficult to decipher. Many of the alleged misdeeds of defendants appear
4

unrelated to plaintiff. For example, plaintiff alleges that at th

e request of defendant Judge
5 j Edwards, defendant Gaul acted to prevent “
public gossip and ridicule”
against Judge Edwards by
6 || removing a declaration from his wife from the
public file in Judge Edwards’ divorce case. Id. at
7
19. Plaintiff s FAC fails to connect the
■I
actions °f specific defendants to actual deprivations of
| her rights, as is required by §1983. This defect also requires dismissal
on screening.
9
,0 ,
. , . Finally,
, ,
m0St °f the named defendantS are absoluteIy
e from suit. Plaintiff may not
10 | maintain § 1983 clatms against individual judges SeeStumnvg u
1 ges- SeeStump^SEarkman, 435 U.S. 349, 356-57
11
( S>78). The County District Attorney’s Office and its
prosecutors are also immune from suit.
12 II £gglmbler v. Pflr.httr»a» 40/j ^ c;
409 (1976); Stevens v. RifVin 608 F. S
upp. 710, 728 (N.D.
13
Cal. 1984). The Eleventh Amendment bars plaintiffs claims
against the California Highway
14 Patrol and the -P-ior court, which are state agencies. See Simmonsw Sacramento rw,,
16

~E2£^,318F'3dU56’n61(9thCir-2003)- Eleventh Amendment immunity also bars
| Plaintiffs damages claims against various state officials in their official

capacities. See
17 Eaglesmith y. Ward
I8 , ,
t
73 F'3d 85?’ 859 (9* Cir- 1995>- The court is obliged to dismi
-iss actions
| thatseekmone^tary relief from defendants who are immune from such relief.
28 U.S.C. §
19 || 1915(e)(2). These claims cannot be cured by
amendment.
20
Ordinarily, pro se plaintiffs
are given the opportunity to amend a deficient complaint
21 II Noli, 809 F.2d at 144.
„ . ,,
In ^ °ase> pIaintiff has a,re*dy had the opportunity to
amend. ECF No.
• Following an unusual amount of delay, plaintiff submitted
an FAC that failed to cure several
23
iiindamental deficiencies of the ori
origmal complaint. Large portions of the FAC
are barred by
various immunities and cannot be cured by amendment.
As to the putative claims that are not
25
absolutely barred, plaintiff has de
monstrated her inability to follow the Rules of Civil Proced
ure
26 and the pleading standards .
explained by the court. In light of the circumstan
ces of this case, it is
27 clear to the undersigned that furth
er leave to amend would be futil
e and would unjustly delay the
28
hh
5

Case 2:12-cv-01984-MCE-AC Document 43 Filed 03/20/19 Page 6 of 6
1

conclusion of this already seriously delayed ease. Accordingly, the undersigned recommends

2

dismissal without further leave to amend.

3
4

IV. CONCLUSION
In accordance with the above, IS HEREBY RECOMMENDED that the First Amended

5 | Complaint should be DISMISSED with prejudice.
6

These findings and recommendations are submitted to the United States District Judge

7 II assigned to the case, pursuant to the provisions of 28 U.S.C.

§ 636(b)(1). Within twenty-one days
after being served with these findings and recommendations, plaintiff may file
written objections
9 || with the court. Such a document should be captioned “Objections to Magistrate Judge’s Findings
8

10 II and Recommendations.” Plaintiff is advised that failure t

o file objections within the specified
11 II time may waive the right to appeal the District Court’s order. Martinez v Vkt 951 F.2d 1153
12
13

(9th Cir. 1991).
IT IS SO ORDERED.

14 | DATED: March 20, 2019
*

15
16
17

%

ALLISON CLAIRE
UNITED STATES MAGISTRATE JUDGE
i

18
19
20
21

t

22
23
24
25
26
27
28
6

.

Case 2:12-cv-01984-MCE-AC

Document 49 Filed 05/28/19 Page 1 of 17

1
2
3

4

FILED

Lewiston, CA 96052
(415) 333-8000

MAY 2 8 2019

Plaintiff, pro se

Eastern d^stric]

5

BY

6

yt COURT
CALIFORNIA

DEPUTY &£RK

8

IN THE UNITED STATES DISTRICT COURT

9

FOR THE NORTHERN DISTRICT OF CALIFORNIA

10
11

PATRICIA A. MCCOLM

12

NO. 2:12-CV-01984-MCE-AC

Plaintiff,

13
14

IgSMmansMSM

15
16

ScKotCic!; KKR

17

EXHIBIT FILINGS UNDER SEAL.

18

[FRCP 72(b)(l-3); FRCP 73(b)(3);

19
20

vs.

REQUEST FOR HEARING

21

TRINITY COUNTY

22

etal.

23

Defendants.

24
25
26
27
28

TO HONORABLE MORRISON C.
ENGLAND, Jr., UNITED STATES DISTRICT
JUDGE:

a Mccrrr
e“*hueby
s o,cm
^OBJECT,
^^
^andp^r™®*
M (PbuiiiQ) does
rKpectfull,
in its^
entirely
eacj, contention
1

xx

APPENDIX E(2)

i

■

Case 2:12-cv-01984-MCE-AC

Document 49 Filed 05/28/19 Page 2 of 17

therein, to Magistrate Judge’s FINDINGS AND
[43] (R&R) that
“Without further leave to amend," that “the First Arne
nded Complaint be DISMISSED with
3 prejudice
entered on March 20,2019 by Magistrate Judge Allison Clai
aire (Magistrate Judge) on
4 grounds that the findings and recommendations
are factually erroneous/misleading, lack specific
5 fact and citation in support
. appear to be moot by prior action of the court and appear to be
6 against law and/or to b
.
6 °miSSi°n °f &Ct 3,1(1 Iaw t0 Prejudice plaintiff; does OBJECT to Order
2

7

“ —»«<« of

i„ju, „ pmmm d|„H% re eaem|M of

8

does object and move to v

9

636(c)(4), for goodc ause/extraordinary circumstances, requests Judicial Notice

10

acate referral pursuant to FRCP 73(b)(3) and 28 U.S.C.

e i it filings under seal, with hearing requested:

[4ijj

section

of medical

11
12

.

13

te.H|Wof|„|n„Mm,h, Arr.aninr ...................

1. aBJECTm'1 <■

14

nm mm I, Ij'Mon, of Tim,/

rronenus
las and MW
« '*>

mm0‘^”"Pl' re,”"“ “

■>/

15
16
17

18
19
20
21
22
23
24

25
26
27

28

zir

good «„» b,

-u - -——.
.
zz,
„ose, ^
w
„rasity, ^ ^ w

questionable; in particular, by the Magistrate Judge making th

e suggestion that ADA
unjustly delay the conclusion ofthis already
seriously delayed case. ” Recusal, not dismissal is
! proper thereby. The Magistrate Judge repeats
the biased discriminate^ error in recommending that leav
e to amend be denied; because,
granting the first amendment followed "an unusual a
mourn ofdelayf without actually showing
the good cause of medical
necessity by plaintiff and the impossibility to proceed earlier by
’
reason
of delay imposed by the court..
The innuendo/suggested basis for dismi
-smissal is not only factually
wrong, it is deeply hurtful fo
r any person with disability who has brought a case seeking a
remedy / relief from bias and discrimination in a forum
charged with protecting the civil rights of
persons with disability.
accommodations/extensions of time would “

2

.
1
2
3

Case 2:12-cv-01984-MCE-AC Document 49 Filed 05/28/19 Page 3 of 17

Remarkably, the Magistrate Judge makes no mention of the extraordinary

amount of
delay occasioned by the court; e.g. eight months between Plaintiff filing the first amended

7

complaint and instant “ screening.” The repetitive “screening” process by different judges makes
the process fundamentally redundant, unfair, onerous for a pro
se plaintiff and unconscionably
painful and burdensome for a plaintiff with disability; i
in particular, where many issues were
resolved previously in plaintiffs favor; but are
resurrected by a different judge for a new round
of “got-cha.” If a judge does not have the judicial temperament and ethical patience to

8

accommodate the special needs of a pro se plaintiff with disability,

4

5
6

9 remedy is appointment of counsel, not dismissal.
10
11
12
13
14

then recusal is proper and the

^.OBJECTION to Magistrate Judge's False Plain. of Fail..™ tn

omplv with line
Bate for Amended Complaint with Wrnnyf.,1 Tn^rence Affain,t p,aintiff ro n„,„„
It appears that pro se plaintiffs are NOT entitled to the

same respect or careful review of

the facts and law in compliance with the same judicial ethics

15

applied to standards for attorney
documents/pleadings. JMs is wrong as is the false assumptions of the Magistrate Judge and/or

16

her assistant, who just immediately assume the pro se plaintiff is wrong, rather than consider that

17

etther the judge and/or her assistant may be wrong and that the pro se plaintiff may actually be

18

RIGHT! For example, on page 1 of the F&R, the Magistrate Judge alleges that: “Plaintiffs

19 given 60 days to file an amended complaint (making it due May 28,2018), with the warning that
20

21

nofurther extensions oftime would be granted. & Plaintifffled herf
irst amended complaint on
May 30,2018 (emphasis added).”

22

THE FIRST LINE OF “HI. ANALYSIS" stales: Tk,oonHnoU,„,k,om,ammh,

23

'”AmM Complaint

OlmMO. o/K'pmolou, UngH,

24

Ho^.^oanr M,

25

Ms.»«Mi.i~.rn,*.,,,

d™ „„„ Mch

j,

26
27

.« y •«... of tauw „d aw. It a. m«i«* m*

28

Who is being accused of filing late and causing delay;
3

m

which precipitates the erroneous

Case 2:12-cv-01984-MCE-AC

Document 49 Filed 05/28/19 Page 4 of 17

recommendation of dismissal with prejudice. There is no actual
2

4

pertaining to any cause of action with showing that ANY

analysis, facts and law specific,

such is without merit. The

r"7“
h”'^
bias and error, not a lack of merit re claims.

p«,„ „PWon

5

IN FACT. IT IS THE MAGISTRATE judge who rg

6

UNCONSCIONABLY WRONG re LATE FTT TNG/nFT a v

7

AS IS HER X>STILE BIASED APPRO A fH to

8

REPETITIVE FAI.SE ASSTnvrPTTnMfi

9

BEGARDING pro SF PT A INTIFFS: if not....

10
11

and/or this particular plaintiff who must

r,ni„,ifr
.-nrt,,

BJ2ng was the Magistrate Judge fW THE FACTS- MAV«^

12

m^AY, MEMORIAL DAY! Tjun^ntifl^^

13

Complaint on that date as the

14

15
16

ow

.

her AmpnHpf)

aj|P

:es she should have dnnp in ho
'urther. the Magistrate -T..H Le FAILS TO AryxrmVT Fnr;Tr
under FRCP fitdj, plaintiff han
3IL additional three dovs tn «ie hv
the Order bavin
een mailed! Ti us. PLAINTIFF’S AMFNTurn
timely.

17 II gQMPLAINT WAS TIMft v FTT.F.n tm
RDANCF. WITH
Requirements nriiwi
Plaintiff deserves an apology for the
19 d,»Wp»n and
wort
M^state Mge ^ ^ ^ ^

^_

20

^ of

m»ngful d™,ss«l based on plaintiff having tMa,ly

^

21
22
23
24

ot Stated Any

LLaim Upon which Rrilrf »qn h e granted.

25
26

A. OBJECTION re Late Filing of Amended C
omplaint. As stated above, the
27 Magistrate Judge’s assertion of late filing/delay is blatantl
y wrong. The remainder of the
28 assertions for alleged failure to
state a claim upon which relief can be
granted are equally wrong.
4

•

Case 2:12-cv-01984-MCE-AC

Document 49 Filed 05/28/19 Page 5 of 17

1

For the most part they are so vague, ambiguous and unspecific

2

as to any alleged claim, as to be
legally insufficient for eval uation on any fact or law pertaining to each contention /

3

recommendation for dismissal with or without prejudice.

4

5

B. OBJEC™N re Vague and Ambiguous Erroneous Reliance on 2016
A., j p|
6 ^.eged Pleading Errors by Magistrate Judge Ellison in ORIGINAL complaint [II] re
7

istaken 42 U.S.C. section 1983 claims in Disregard of Mandates under the ADA

The
original complaint to which the alleged pleading
errors refer, is clearly NOT the First Amended
9 | Complaint; which in fact,
,oil
,
cures what were previously questionably deemed to be “pleading
8

»'w«™.bc^inWloftef„fcM,toJodgcKcJn

made
making in instant matter, by addressing
alleged errors solely under 42 U.S.C.
section 1983 and NOT under the ADA or Fair Employment
and Housing Act. Thus, the 2016 Kelli
nF&R essentially do NOT appt v thr
ended
Complaint here; in partied^ in f.;nnr tn
igognize that under the ADA
,n. •d. immunitiftg
etc, do NOT apply. The Magistrate Jud
ge engages m factual error ignoring most of the First
Amended Complaint and the nexus b
etween the defendants and causes of action that arise out of
the agreement for conduct in concert to prejudice plaintiff in retaliation for her ADA objections
and civil rights complaints.
essentially the same errors that the Magistrate Judge is

12
13
14
15
16
17
18

19

T""

21
22
23
24

Of*,

20(„X2) ,||=

gedly imparts; but
fells to identify any fects or authority in support related to the AMENDED
r-ha,
Wfi.„bly „d
objeeM )o ^ ^ ^ complaint, just

20

^

“■"a «ri. of diseo^.oNd »d „os,,y u^L

ANY OTa™T!'“"” ^
lnV0‘V* ^
» ~ce- WIDtOUT
ANY CTAT.ON TO ANY SUCH ALLEGED FACT, TRANSACTION OR oCCDeX •

25
26
27
28

The 2019 RULE 20(a)(2) IS NOT EVEN QUOTED
or APPLIED PROPERLY! The
statute is a “Permissive Joinder of Parties”
es statute. As related to defend ants in subjection (2),
5

■ Case 2:12-cv-01984-MCE-AC Document 49 Filed 05/28/19
Page 6 of 17
1
---------- ---------------------------------------------------------------------

occurrence, or series

I of transactions or occurrences; and (B) any question of law
4

..

defendants will arise in the action.”

or fact common to all
The Magistrate Judge does NOT identify
any claim or

Complaint. The Magistrate Judge mistakenly asserts that si
since: “The allegations do not involve
8 the same transaction oroccun
0„™
ence% This defect 'Wires dismissal on
screening” NOT SO!
The statute is clear that it does NOT have to be
a single transaction or one that is the “s
ame ” as
10 the Magistrate Judge asserts^jheneht to
,i „
^i^narisefluLofaseries of
ions or

>aa « « p»p»iy «, f„„„ „ Wng „laM tle Hm ^

ended Complaint.

13
14 II P. • r,
C’ °BJECTION ‘° Fai,ure t0 Ci“= Related Joinder Stat
utes Favorable to
4 Pla,nt,ff: Magistrate Judge also fails to menti ention Rule 20(b), which provides nrotect.v.
1^ measure
16 II am'
6 ^ ^1SSUe °rder"indUding 8,10rder for separate trials-to protect
a party
g s em arrassment, delay, expense, or other prejudice that arises fr
om including a person
against whom the party asserts no claim and
who asserts no claim against the party ”
18 Importantly, the Magistrate Jud
ge also FAILS TO MENTION RULE 18 RE JOINDER OF
19 I CLAIMS, which allows: “
(a)...as independent or alternative claims, as many claims as it has
20 against an

ve rights...”
er, under Rule 21-Misjoinder and Nonjoinder of Parties: “
: “Misjoinder of parties iis not a
24 ground for dismissing an action...”
25

26
22

28

^-OBJECTION
ADA in rnntravenfinn

tv.-

B£2i^S£liance^_n Kellism. 40 rr o r
1983 and whArf
a£MagistrateJudge’S Asserting.

Since the Maei
gistrate Judge wrongfully alleges the FAC doe
s not state “ANY claim upon
6

•

Case 2:12-cv-01984-MCE-AC

Document 49 Filed 05/28/19 Page 7 of 17

1

WMCh rdiefCan be ^rante^ (emPhasis added),” and questionably relies solely on an alleged 42

2

U.s.c. section 1983 claim, plaintiff brings to the court’s

attention that there is an undisputed
viable “one claim,” a cause of action under 42 U.S.C. 1983, that does relate to all of the
4 defendants, such as to avoid a dismissal,
which is pursuant to the holding in Zilch v Long 34
5 F3d 359 (6th Cir. 1994), that "Retaliation fo
6
3

7

8

court

services as stated m the First Amended Complaint does state a claim / causes

of action under 42
9 U.S.C. section 1983 as First and Fourteenth Am
endment, constitutional violations. Thus, as
10 asserted by the Magistrate Judge, the alleged “one claim
” requirement against each defendant
11
wfwre there is an actaal Wto
„f ^
12 "" bd** deprivations o,o.nsliM„™,
^^ ^
13

screemng defect under Rule 20(a)(2) which requires dismissal.

14
15

E. OBJECTION tn Failure nf Mapi

16

Actors / Supervisory Personnel potentially

17

questionably relies on outdated 2016

18
19

strate Judge to Acknowledge that
Trnr1
er ADA. .The Magistrate Judge

erroneous comment by Judge Kellison in stating that
plaintiff failed to correct an alleged deficiency after being informed by Judge Kellison in 2016

20

that“ supervisory personnel are generally not liable under section 1983 f0
r the actions of their
employees.” This is BSgagJnthat the MapistrateJudge appearsNOT to have
,

21

i

the FAC where

i

Mfer the AT>A f li,im<,■ ^ actors

liable under the

atta

22
23
24
25

26
27

the FAC. (Note. Tnmty County is one of the few Counties in the State that
has NOT transferred the court bailiff and
other services to the Trinity County Office of the
Sheriff.)
„

.

LaBffiT1°N rC^g^ateErrorjnfalseass.,mnHn„

^

28

There is nothing that is
7

■ Case 2:12-cv-01984-MCE-AC Document 49 Filed 05/28/19
Page 8 of 17
1

“difficult to decipher” about the claims

2

which appears to be just another unfounded attempt by a biased Magistrate Judge to “bootstrap”

3

prior en-oneous comment about the original complaint to the FAC, wi
without a diligent reading of
the
entire
FAC;
a
reading
that
. •
would clearly show that all the wrongs alleged are related to the
plamtiff. Plaintiff OBJECTS to the factious tone and c
omment of the Magistrate Judge in
characterization of the facts in the FAC,
constituting KNOWING violation of plaintiffs civil
rights, as “misdeeds” and then as
^ , J
311 CXample’comments on one small part attributed to
defendant Edwards asking defendant Gaul to
prevent “public gossip and ridicule” against Judge
dwards by “removing a declaration from his wife from the p
ublic file in a Judge Edwards’

4

5
6
7
8

9

against defendants in the FAC; a comment in the F&R

10

f”"

11

errs m making the false assumption that: “Plaintiffs FAC fail

12

Me.d«,„ „ M dtprlvMon of

- to-dta* folio*,*

in„mpUte mhkMine

to connect the actions of specific
^ ^s ^
im ^ ^^

^

13

n.dleg«idefelte„o,rei.„,„.yacts or
authority set forth in the causes of action.
The comment re Judge Edwards/Gaul are taken from
15 II the identification of the defendants list.
16| f
u. u
TOE ENTIRE PAGE 18-20 is incorporated herein by
16 reference, which shows remarkable editing to give a false i
impression by the Magistrate Judge
17 and remarkable failure to give the full facts and circumstance
18 | defendants and causes of action being set forth later in the s of the nexus between the
separately stated causes of action.
19 II As sa
20
? a°” ” "
aghB
As set forth above, a 1983 violation is found under ZiUch b
y reason of retaliatory conduct in
21 violation of constitutional rights,
such as filing false criminal charges; charges which were
23 I
ae^n<^an* Edwards in concert with Judge Gaul, acting in excess of jurisdiction
14

24 Edwards was accused by his wife of having an affair
25 0,0*
tavo]raj ^
S'”=*«* «*
court clerks was a matter of public
reputation and comment;
and which on information and belief, contributed to Judicial C
ouncil acting to admonish said
27 judge and eventually acting to prevent his serving as a judge in the future, do
es not change the
28 factthat acts by judges in excess of all jurisdiction
are NOT protected from liability; in
8

• Case 2:12-cv-01984-MCE-AC
1
2
3
4

5
6
7

8
9
10
11
12

Document 49 Filed 05/28/19 Page 9 of 17

particular, for knowing violations of constitutional rights.

The FAC clearly shows that the
Magistrate Judge alleged defect under section 1983 i
is wrong and more wrong because the FAC is
viable on the facts under the ADA where there is no
relief from liability for State actors.
Just because a Magistrate Jud
.
t
86 may not like ^idea of handling a case in which a judge
" inVOl"d d*l”iv“l“ «f • Olio’s CM! right,; m.h i,
g
cause to create
questionable defects, being alleged to “require dismissal
on screening.” That is a basis for
recusal and/or extraordinaiy ci
vi, f ,
circumstance to vacate the refenal, not for dismissal of claims by the
victim of such unethical defendant
Y
court employee abuse.
Plaintiff has made the correct allegations in the
complaint that judicial immunity does not
apply not only because of the ADA; but because th
e allegations show that the judge acted in
clear absence of all jurisdiction.” Thus, a dismissal i
is not appropriate of such a judicial officer.

13
,, . „ . _ ,

G' “““ A"°"

«* ADA. Wleto » m U

: rf

there is
17 no effort to distinguish any defendant that
io „
L .
are not immune from suit; in particular, where there is
question that immunity/Eleventh Amendment does not apply to State
actors such
~efendants in insfant case, who art* NOT im
v
mune from liability under the An^ And, what
oo [i u
I .bo« tho, ddtadm, who knowingly «,*,«
21 | questionable, that the Magistrate Judge dews not address theconstitutional
liability j rights? It is
- issue under the ADA,
22 glpariy negates the ennw;™, tj11t. «
2-> n .... ,
■ "The court is obliged to dismiss actions that seek m
onetary
relieffrom defendants who are immunefrom such relief 28 U.S.C.
section 1915(e)(2). These
24 II claims cannot be cured by amendment."
Tlie court is NOT obliged to dismi
-iss or deny
25 amendment.
26
27
28

4, OB.TF,rrpinv| KO BASTS JN FArT qr |,a\V
ZOR FAJT IJRe to no
AMFNDMfmj

i

i

9

Case 2:12-cv-01984-MCE-AC
1
2
3
4

5
6

Document 49 Filed 05/28/19

4. OBJECTION » «* *. Magistrate judge d.„

Page 10 of 17
„y

actual defect
by fact or law in any cause of action that reaui
requires amendment or dismissal. In fact, most facts
related to the causes of action are not
FAC was not actual I
„• •
eVen mention«d; which gives the strong appearance that the

FAC „ „

raed „ ,0 ^ Bl„

claims that are not barred; without statement

^^ ^ ^

of fact or lawi

« b- » prejudice p-raW*,

7

8
9

B. OBJECTION that any perceived “i
inability” of plaintiff is not willful; but medically
10 induced. JUDICIAL NOTICE i
is hereby requested of Medical Exhibits
requested to be filed
11 II under seal in this matter.
., ,
C'early’the Magistrate Judge does NOT want to handle
a case where
• perac. «Bh dirabili,,, retire* uccorareod.,., by
^
^
or that she
cannot be fair and impartial as to this particular plaintiff.
In any event these are grounds for
15

agistrate Judge simply alleges that plaintiff has “
already had an opportunity to
16 II amend” and that even with the ‘
“unusual amount of delay” the FAC contained several alle
ged
17 “deficiencies” found in the ori
are

2, Lreip.^rj

™.i.

23

25

thus, should not be acting in this case. These

• ° Senousl>' debilitating mjuiy; and

26 I withdrawal of referral of this and any

C™tanCeS “ SUPP°rt °f
impartial to pro se

28

pro se plaintiff with disability.

10

■ Case 2:12-cv-01984-MCE-AC Document 49 Filed 05/28/19
Page 11 of 17
1

C OB.TF.P

,

2
3
4

5
6
7

8

K>N i» PtiM iif |

„ Arwl whfrv lh.„ I.

»*»(!., w.np.lMMI .=

zrr

----- ,

rant

a., ftls „„ with

“",
"“cd" “h PRCr 15(>) cwly^.H.
, ftv„blt
siate ^ ^

shall be freely given when justice

so requires.” Allen v City ofBeverly Hills (9h Cir. 1990)911
F2d 367, 373. Justice so requires where any alleged delay/defect is based on disability as in
Wh6re ^e ^
failed to grant the time recommended
by plaintiffs physicians and/or plaintiff based on knowledge of her special needs

9
10

11
12
13
14
15
16
17
18

OBJECTION Ahn^e of Disrrpfinn

£e Failure to Grant I eave tn Am»nA
In forma pauperis complaints are liberally granted leave to amend.
In instant case, the
Magistrate Judge is silent regarding actual specifics
supported by fact and law that leave to
amend is “futile” or would “
unjustly delay.” What this says is that the Magistrate Judge considers
accommodation of disability to be “unjust;” and thus, does
not want to accommodate plaintiffs
disabilities requiring additional time. Simply
wanting to avoid delay is not cause to dismiss; in
particular, WITH PREJUDICE! There is a failur
e to provide any justifying reasons that leave to
amend is warranted. Thus, the Court’s
silence may be deemed an “outright refusal;’
having the
same result, an abuse of discretion. Toman v Davis (1962) 371 US 178, 182. In that the Court

19

clearly has not identified any fact or cause that needs am

20

as filed and/or with le

21

renewed application.

endment; the complaint should proceed
ave to amend and/or appointment of counsel
sua sponte and/or upon

22
23
24

25
26
27

28

5.

SECTION Ti ^mSSALAm DISMISSAL WITH PPfTTmr^p
There
is no justification
or reasons stated for the recommendation for dismi
missal or dismissal “with
prejudice.” If “delay” is the cause, then that i
IS based on bias against persons with disability who
need accommodations to achieve a result fair
and equal to able-bodied persons.
The alleged
delay in instant case was well justified and so found by the
court in granting leave to amend by
reason of medical circumstances. There has bee
n no finding that there are NOT facts in the FAC
11

i

■ Case 2:12-cv-01984-MCE-AC Document 49
1

that could not possibly support a cause of action and/or

2 II There is no finding that the entire action is either “
3

dismissal; in particular, with prejudice.

4

Rule 15 does NOT limit leave to amend to

5

Filed 05/28/19 Page 12 of 17
cure any objected to alleged “deficiency.”

frivolous” or otherwise meets any cause for

one chance to amend to state a claim upon

6 I chance is required. Here there is nothing q^cific that alleges that ANY
7 state a claim. The so-called “

cause of action does not
circumstances of this case ” are objected to as vague and

9 this particular plaintiff with disability from extrajudicial sources.
There is no basis in fact or law
for an allegation that the case does not state a cause of action under Rule 15.
Dismissal is only if
11 it lacks an arguable basis in either law or in fact; i
in order words, dismissal is only appropriate for
12 a claim based on an indisputable meritless legal th,
eory. Fogel v Pierson, CA10 (Colo) 2006, 435
13 F3dl252.
10

«te .

paape™ shnte, is

"" „ st* . .1*

the familiar standard for a motion to dismiss for

lhe

^ „ praimed ^ ^ ^

^^

16 dismissed only when it is CLEAR THAT NO RELIEF COULD
17

SET OF FACTS THAT COULD BE PROVED

BE GRANTED UNDER ANY
CONSISTENT WITH THE ALLEGATIONS.

18 | Jones v Link, E.D.Va2007, 493 F.Supp2d 765.
19

The initiating right to sue letter in i
20 | where the offending judge is reputed to
21

girlfriend” without a valid search as

required for State employees. There is no

contention that there is any defect in that cause of
22 action; or any other cause in the
complaint, for that matter.
23
It is a sad day for the court that a dismissal is based
on descriptions attributed to judges in
24 | the FAC defendant list and an apparent refusal to afford

251

„ dsnM

22

26 || accommodation of disability to a plaintiff.
27
28

kDBJECTTON TO OPnro n

E™^MYE2gENSLQN RE OR.TPrTfftwc
12

• Case 2:12-cv-01984-MCE-AC Document 49 Filed 05/28/19 Page 13 of 17

1

On April 26,2019, plaintiff suffered

a serious laceration injury that has not yet healed. It
2 continues to produce fever, be sharply painful, swollen,
with such drainage as to substantially
3 wet everything in contact therewith. The lack of continuation of antibiotics has
caused other
4 medical conditions affecting ability to
concentrate and accomplish timely written work in such a
5 fashion as to have a chance at a favorable result equally with able-bodied
,„ ,
attorneys. In spite of

te c™_i„g Itatota,

neceKity * Mm other

7 I apfwratmenis,Judg,
8

,0 pTOvi*

these objections to be timely filed with the court.

^

nKessw 3„ d

ay extension of time for
Cutting the time requested in half to 15 days i

9 a pattern and practice of the court that i
is potentially prejudicial as it requires additional requests
10 or tune that would not have been necessary if the original time anticipated by plaintiff and/or her
11

doctors had been granted. Thereby, the number of extensions is increased, giving a false

12

impression of delay and is fundamentally prejudicial in cutting short the time in which a party

13

with disability can function effectively. And, if an additional extension for the time

14

originally
asked is denied as no more to be given, then there is clear inherent prejudice being arbitrarily

15

imposed against medical necessity. Generally, plaintiff can only function reasonably in the few

16

morning hours; where NOT affected by acute injury. And where affected by acute injury, such

17

has clearly NOT been accommodated

1$

• Thus, the court should not expect the same time to be
applied toward any written project that able-bodied persons/attomeys could work thereon.

19

Accordingly, if there is anything further the

20

court requires to avoid prejudice in this
matter by re^op of any expectation for these objections, the court is respectfully requested to

21

provide opportunity to supplement same.

22
23
24

OBJECTION that nAtteral Cm

re Dismissal Not Warranted in

Instant

25

In considering a dismissal of a complaint,
courts must assume all general allegations
26 “embrace whatever
specific facta might be necessary to support them.”
[Peloza v Capistrano
27 Unified School Dist. (9th Cir.
comb u.
'»<) 37 FJd 517.321 (emphasis «,dcdj| The appro,* oflk
28
Ml bp b, epply this —it. threugh.u,CMyi dpplMo„f _
13

• Case 2:12-cv-01984-MCE-AC Document 49

Filed 05/28/19 Page 14 of 17

1 fights and acts in concert to deprive plaintiff thereof are actionable under 42 U.S.C.
2

and other statutes as actually stated in the complaint.

1983, ADA

3

Plaintiff is entitled to the benefit of any doubt whatsoever. Where there are ambi
- iguous
4 inferences, the court must adopt whichever inference
supports a valid claim. [Columbia Natural
5 Resources, Inc. v Tatum (6th Cir. 1995) 58 F3d 1101
,1109.
6
Pro se complaints are entitled to special leniency and are to be liberall
y construed.
7 Hughes v Rowe (1980) 449 U.S. 5,9.
8
A complaint poses legal theory that can best be assessed after factual development and
9

should not be subject to a Rule 12(b)(6) dismissal

10

• Baker v Cuomo (2nd Cir. 1995) 58 F3d 814,
818-819). Nor should it be subject to any other basis for dismissal; in particular, without time as

11

medically necessary to amend and/or in instant case without any leave to amend, deemed an

12

"outright refusal.”

13

The purpose of section 1983 to redress “Misuse of power, possessed by virtue of state

14

law and made possible only because the wrongdoer is clothed with the authority of state law, is

15

action taken “under color of’ state law.” Monroe v Paper (1961) 365 US 167, 184.
Also a
person mvolved in a conspiracy with a state official to denri
epnve another of a constitutional right,
acts undercolor of State law. Dennis v Sparks (1980) 449 US 24,27.

17

18

Here there is substantial allegations of acts and omissions in concert which not only

19

retaliate under the ADA but also constitute an attempt to deprive plaintiff not

20

accommodation; but of her liberty interests as well as right of review with us

21

procedures with the significant assistance of state official

only of her right to

e of the state

23

s. Tulsa Collection Serv. v Pope
(1998) 485 US 478,489. The complaint clearly shows that plaintiff was treated differ
ently than
able-bodied persons and/or retaliated against for her prior complaints and filing 8 claim of

24

discnmmation/retaliation in civil right complaint in instant court.

22

25

There is not cause for dismissal in this action.

26
27

28

8« Cause fnr rt>nnsal by (he Magistrate Judpp under the r„,trt>s CnH„ nf VtU.„
showing of extranr/tinnn,circumstances to vacate the referral anA tn rB,a„t tU„
14

s and a

i

* Case 2:12-cv-01984-MCE-AC
1
2

Document 49 Filed 05/28/19 Page 15 of 17

recommendn/inny
There appears to be no question that the Magistrate Judg

e cannot be fair and impartial
where this disabled plaintiff is concerned; i
in particular, where there appears to have been no
4 consideration of the documentation in support
of good cause for extensions of time, there iis no
5 consideration of fact or law on the merits of the claims/causes in the FAC.
6
Clearly, the questionable approach by the Magistrate Judge i
in this action with omission
7 of operative fact and law to deny substantial procedural
and substantive rights to this Plaintiff is
$ too harsh,
evasive and discriminator, to withstand scrutiny, showing that the
referral should be
9 vacated and recommendations rejected.
3

10
11
12
13
14

15
16

request for judicial notice of

medical exhibits under seal
Plaintiff requests judicial notice of the medical exhibits submitted herewith for filing

" * / " P"““-

of ’“»

by to

Mg,,

alleging that plaintiff’s inability to comply with

court rules is a ground for dismissal with
prejudice; where any such perception is objected to as
error; in that any alleged inability to
comply is clearly not willful or intended per exhibits submitted.

17

18

Conclusion
For the reasons outlined above, and as required by 28 U.S.C.
section 636(b)(l)( C) and
20 Rule 72.3(b) of the Rules of this Court, Plaintiff obj
ects to the Magistrate Judge’s Findings and
21 Recommendations.
19

22

The Court should decline to adopt the F&R

24

• Instead, it should grant leave to amend and
either sua sponte and/or upon application, a
ppoint counsel to assist plaintiff in meeting the
Court’s requirements.

25

Dated: May 25,2019

23

26
27
28

's^ectfully submitted,
;

Pal a A: (McColm
PWtiff
15

i

* Case 2:12-cv-01984-MCE-AC
1

Document 49 Filed 05/28/19 Page 16 of 17

REQUEST FOR HEARING/APPEARANCE BY TELEPHONE

2

In further support of good cause in support of objections, oral argument is respectfully
3 II requested by telephone.
4

Your kind consideration is appreciated.
5 II Dated: May 25,2019
6
7

miRic:
Plaintiff

8
9

XOEM

declaration

10 || PATRICIA A. MCCOLM declares:
11

1. I am the plaintiff in the above entitled action.

12

Z Jhe statements herein are my personal knowledge and if called as a witness could and

13

would testify competently thereto.

14 II ,
15
, '' ^ f3Cts stated “
above notice and motion are true and correct to the best of my
| knowledge and if on information and belief, believe such to be true and conect.
16
17

4. Judicial Notice is respectfully requested of separately submitted for fili
ng under seal,
medical exhibits im support of the objections.

18
, o „ rv u*r5. Your declarant is a qUalified PerSOn With diSability v**the American’s With

20 r't f

“““

«-

.»»» » « «.„p*nUy ^ s„

any particular time,
21
whether
or
not,
sufficient
22 || t0 ..
.
C°gnitiVe “d Physical fimction wiU be mailable to function effectively
23

result. The diagnosts .s one that was belatedly identified in 2016

as a ground of negative impact
24 on inability to meet time limitations in this action. It i
, Rf, ,. ,
18 progressive M.S., worsening over time.
25
6. Rather than be prejudiced thereby, the unpredictable limi
nutations support application for
26 |[ appointment of counsel in this meritorious
07 ll u
ADA failure to hire and retaliation case But for the
27 substantial impact of the acute injuty of Anril 26 2010
“
28
April 26,2019, a proper motion for appointment of
. Accordingly, either sua
16

* Case 2.12-cv-01984-MCE-AC Document 49

1
2

Filed 05/28/19 Page 17 of 17

sponte appointment and/or leave to file such motion hereafter i
_ r is appreciated.
7. It is respectfully requested that Judicial Notice be taken of the decl

arations in prior
3 II motions for time extension; as incorporated herein by reference (See 2:12-cv-1984), because it is
4

not physically possible to repeat herein the extraordinaiy circumstances

5

that have existed, preventing ability to competently use the prior time to

and medical detriment
complete the written

6 requirements in this matter;

emergency circumstances, constituting conditions of impossibility
7 II and good cause of excusable neglect for not adopting a dismissal
with prejudice m this action,
8
8. If there is any aspect of these objections that needs
augmentation for a favorable result
9 to deny the recommendations, then leave to supplement under your direction is appreciated- as
10 yes, I've been foreed to pull from other doeuments some language and authority whieh is relevant
11

here; in light of the scope of my acute injury, which is

such that daily blood clot shots and near
daily emergency room care with 2+ hour I-V antibiotic treatments ha
ve been required; in addition
13 to four “horse size’* antibiotic tablets two tim
e per day have been required; as well as, pain
14 medications, and two or more daily dressing changes. The deep six inch wound with its
15 continuous huge swelling, is draining so profusely that it runs into my shoes without regard to
12

16 massive bandages and towel wraps and bed ehange needed daily and bloody liquid running onto
17 the floor sitting at the computer; thus, hying in good faith to meet Your Honor’s expectations.
18

8. In that my anticipated time needed for these objections was cut in half and I really

19

don’t feel well with a fever; it is hoped that this important case objections can be mailed for

20

timely arrival at the court to meet the filing deadline so I don’t have to suffer the drive to

21

Sacramento to protect rights set forth in this important case.

22

9. Your kind consideration is appreciated.

23

I declare under penalty of pequry under the laws o

24
25

foregoing is true and correct.
Dated: May 25,2019

ie State of California that the

/
/
n

7

26

-PATRJ e?1A A. MCCOLM
Plainti;

27
28

17

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 1 of 99
^
1

3

PATRICIA A. MCCOLM
PO Box 113
Lewiston, CA 96052
(4151333-8000
Fax by Appointment

4

Plaintiff, in pro se

2

FILED
APR 0 3 2020 [

5
6
7
8
9

IN THE UNITED STATES DISTRICT COURT

10

FOR THE NORTHERN DISTRICT OF CALIFORNIA

Vj

11
12

PATRICIA A. MCCOLM

NO.

2:12-CV-01984-MCE-AC

13
14

NOTICE OF APPEAL TO THE
UNITED STATES COURT OF '
APPEAL, NINTH CIRCUIT; WITH
REQUEST FOR APPOINTMENT
OF COUNSEL PERMISSION & APPEAL

Plaintiff,
15
16
17

vs.

18
V

19
20

TRINITY COUNTY et al.
Defendants.

21
22

Notice is hereby given that PATRICIA A. MCCOLM, the plaintiff in the above named

23

case, PROCEEDING IN FORMA PAUPERIS GRANTED IN THE DISTRICT COURT;

24

hereby appeals to the United States Court of Appeal for the Ninth Circuit requesting appointment

25

of counsel for good cause re limitations of disability to assist with both the process for

26

permission to proceed on appeal and the appeal from:

27
28

1
APPENDIX F (without exhibits)

,

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 2 of 99
1

1) The JUDGMENT IN A CIVIL CASE (ECF 54) entered in this action on the 15th

2

day of October 2019; [The misleading “form” Judgment erroneously states: “This action came

3

to trial or hearing before the Court. The issues have been tried or heard and a decision has been

4

rendered.” There was neither a trial nor hearing. The Judgement further states that: “IT IS

5

ORDERED AND ADJUDGED THAT JUDGMENT IS HEREBY ENTERED IN

6

ACCORDANCE WITH THE COURT’S ORDER FILED ON 4/16/2019.”] A true and correct

7

copy of the Judgement being appealed in this case is attached hereto as EXHIBIT 1.

8
9

2) The ORDER (ECF No. 53) entered in this action on the 15th day of October, 2019;

10

stating: “1. The findings and recommendations are ADOPTED; stating that: “2. The First

11

Amended Complaint is DISMISSED with prejudice for FAILURE TO STATE A CLAIM

12

(emphasis added);” and 3. The Clerk of the Court is directed to close the case.” [No issue on the

13

merits of the case was adjudicated.] A true and correct copy of the ORDER entered 10/15/19

14

being appealed in this case is attached hereto as EXHIBIT 2.

15
16

17

3) The magistrate judge’s FINDINGS AND RECOMMENDATIONS (ECF 43) entered
in this action on the 20th day of March, 2019 [recommending that this action be “dismissed

18 with prejudice” without regard to the facts or merits of any cause therein or right to sue letter
19 from CDFEH.] A true and correct copy of the FINDINGS AND RECOMMENDATIONS being
20

appealed in this case is attached hereto as EXHIBIT 3 with (ECF 49) OBJECTIONS TO

21

MAGISTRATE JUDGE’S FINDINGS AND RECOMMENDATIONS et al appended thereto

22

as EXHIBIT 3A ; therein requesting JUDICIAL NOTICE OF MEDICAL EXHIBITS

23

UNDER SEAL (ECF 51-52).

24
25
26

4) The magistrate judge’s ORDER (ECF 56) entered in this action on the 14th day of
November 2019, TO DISREGARD ALL PLAINTIFF FILINGS; including (ECF 55) Plaintiffs

27
r

28

2

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 3 of 99
1

timely properly filed MOTION TO ALTER OR AMEND ORDER OF DISMISSAL AND FOR

2

RELIEF FROM JUDGEMENT under FRCP 59(e) and 60(b); identified on the docket as a

3

“Motion to Amend.” A true and correct copy of the ORDER to DISREGARD, is attached hereto

4

as EXHIBIT 4 with letter Objection and Motion to Strike (ECF 59) appended thereto as

5

EXHIBIT (4A).

6
7

5) The magistrate judge’s ORDER and FINDINGS AND RECOMMENDATIONS

8

(ECF 58) entered November 22,2019 recommending “Motion to Amend be denied;” a true and

9

correct copy of which is attached hereto as EXHIBIT 5 with MOTION TO ALTER OR

10

AMEND ORDER OF DISMISSAL AND FOR RELIEF FROM JUDGMENT

11

DISMISSING ACTION et al (ECF 55) entered November 12,2019 appended thereto as

12

EXHIBIT 5(A).

13
14
15

6) The ORDER entered February 5,2020 “ADOPTING in FULL 58 Findings and
Recommendations. DENYING Motion to amend, which is construed as a motion for relief from

16 judgment;” a true and correct copy of which is attached hereto as EXHIBIT 6.
17
18

Denial re Appointment of Counsel

19
20

7) The second ORDER (ECF 20) denying appointment of counsel was entered

21

September 22,2016; a true and correct copy of which, is attached hereto as EXHIBIT 7 with

22

Application for Appointment of Counsel for Good Cause (ECF 19) entered September 14,

23

2016 appended thereto as EXHIBIT 7A.

24
25

8) The first ORDER (ECF 6) denying appointment of counsel and denying request for

26

STAY of proceedings in contravention of good cause; was entered March 27,2014, a true and

27
28

3

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 4 of 99
1

correct copy of which is attached hereto as EXHIBIT 8 with application (ECF 4) entered March

2

27,2013 appended thereto as EXHIBIT 8A.

3
4

9) Prejudicial Limitations re Accommodation of Disability re Requests for Extension of

5

Time and Appointment of Counsel; JUDICIAL NOTICE REQUESTED OF MEDICAL

6

GOOD CAUSE FILED UNDER SEAL (ECF 52, 31-34, 23,21,16). Medically verified time

7

needed to accommodate limitations of disability in order to accomplish any written project

8

required by the court in such fashion as to have a fair opportunity with able bodied persons to

9

achieve a favorable result, was arbitrarily shortened; thereby, denying accommodation and

10

inflicting prejudice from inability to meet the limited time imposed and/or inflicting prejudice

11

from need to seek additional time in a good faith effort to meet the expectations of the court;

12

where the deficits of disability negatively impacted achieving such a result without appointment

13

of counsel. Thus, it appears that limitations of disability is the standard upon which leave to

14

amend and denial of access to the Court is based, absent appointment of counsel.

15
16
17

Copies of the Judgement and Orders being appealed are attached as Exhibits 1-8 hereto
and where not attached, included bv request for JUDICIAL NOTICE.

18
19

Plaintiff has not previously appealed the judgement and orders stated above or raised the

20

issues pertaining thereto in a prior appeal or petition. THIS NOTICE OF APPEAL IS BEING

21

FILED SUBJECT TO A NEAR 20 YEAR OLD PRE-FILING ORDER IN 01-80189; which

22

Order is being respectfully requested vacated in a separate application; to be submitted hereafter

23

when time and disability limitations allow; with showing of good cause to vacate by passage of

24

time and discovery of the previously undiagnosed medical conditions which precipitated the

25

older ineffective filings; filings, which were a good faith effort, designed to overcome the

26

targeted “stigma,” the false and defamatory media comment (“fake news”) plaintiff suffered as a

i

27
28

4
i

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 5 of 99

1

person with disability; against which, defense was medically prejudiced. Regrettably, medical

2 limitations inflicted futile filings; a good faith effort, plaintiff hoped would save home and
3

reputation; such relief, essentially prevented by medical impossibility from cognitive/physical

4 decline re undiagnosed Hashimoto’s Disease, which ultimately inflicted black-outs nearing
5 myxedema coma.
6

There are years of medical and financial detriment/bankruptcy filings, trying to overcome

7 prejudice from disability arising from the missed diagnosis. Plaintiff has neither been able to
S fully recover from on-going effects of Hashimoto’s Disease or even begin to recover from the
9 overwhelming continuing prejudicial effects from the false and defamatory media comment and
10 “stigma,” that appear to wrongfully govern decisions made by others pertaining to plaintiff, in all
11

walks of life; decisions based on false assumptions from some 20 years ago; which has been

12 denied a remedy by reason of medical impossibility; and which appear to have influenced the
13
14
15

outcome in this case.
Now, this June 74 year old, coping with age related decline; as well as, refusal to heal
serious leg laceration injury; has yet another debilitating disability from a second auto-immune

16 disorder, belatedly diagnosed Multiple Sclerosis; which, more likely than not, was also not
17

diagnosed in the 1990s and which from progressive cognitive decline, continues to threaten

18

ability to accomplish daily activities of life; as well as, court expectations; in particular, where

19 sufficient time is not afforded for a good faith effort to overcome pain, confusion, lack of
20 concentration/focus, memory loss of instant recall, words and much past learning, inability to be
21

organized and focus being verbose and unable to “edit” effectively; all indicative of the

22 progressive disease with declining cognitive and physical functioning; with inability to cope with
23

i

the “shut-down” distress at being the subject of targeted abuse and deprivation of civil rights as

24 occurred in the action at hand.
25
i

26

JUDICIAL NOTICE is respectfully requested of verification of medical conditions /

27
28

5
!

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 6 of 99
1

limitations of disability and recommendation for appointment of counsel; as set forth by

2

plaintiffs physicians under seal in 2:12-CV-01984: in particular. medical statement of

3

Michelle L. Apperson.M.D. PhD dated August 23.2018. in this action showing that plaintiffs

4

failings are not "willful:" but attendant to medical problems. Please read the entire document

5

giving sufficient showing to vacate dismissal and appoint counsel

6
7

The case at hand, filed in 2012 and delayed bv retaliatory false charges bv court clerks.

8

was misused re false pretenses to obtain a dismissal in a subsequent/supplemental action showing

9

continuing retaliation by specified defendants and new defendants in 2:18-CV-02092 (19-16660)

10

arising from different facts and later dates re incidents targeting Plaintiff in 2017. In that case,

11

without notice and an opportunity to defend, onerous conditions/restrictions were newly imposed

12

by a court clerk letter dated June 20,2017. on plaintiff’s use of court services and presence in the

13

public County building; in particular, a manifestly unjust and prejudicial retaliatory 15 minutes

14

time limitation imposed under unfounded threat of being “put in cuffs” and “taken to jail” by

15

court employee Marshals for nothing more than sitting quietly in a wheelchair in the public area

16

in front of court services windows in excess of the arbitrary 15 minute limitation. Thus, the fear

17

from threats and limited time of access to the court has essentially chilled plaintiffs

18

Constitutional right of access to the court, preventing her from seeking Court services for about a

19

year; resulting from the knowing constitutional violation by court employees, a painful manifest

20

injustice. Thus, the 2:18-cv-02092 action as allegedly “duplicative” and dismissed because

21

instant case should have been amended, is not only wrong on the time and facts as well as the

22

law; the denial of permission to appeal where not even a first amendment is provided, is also

23

wrong and gives the strong impression that pro se and disability bias is used to deny access to the

24

court; if not also used, is the 20 year old “stigma,” also arising from failure of medical diagnosis

25

and disability accommodation.

26

Absent permission to appeal and determination of this case in the District Court; the

27
28

6

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 7 of 99
1

prejudicial knowing denial of constitutional and civil rights by court employees, more likely than

2

not, will continue; in violation of constitutional protections and statutory rights of persons with

3

disability. For this plaintiff, with both cases being dismissed, a COMPLETE DENIAL OF

4

CONSTITUTIONAL RIGHT OF ACCESS TO THE COURT TO RESOLVE GRIEVANCES;

5

merely, by reason of misunderstood and/or not accommodated limitations of disability causing

6

dismissal with prejudice and/or by reason of bias from “stigma” related to this plaintiff with

7

disability.

8
9

COURT EMPLOYEES ARE NOT IMMUNE FROM LIABILITY FOR KNOWING
VIOLATIONS OF A PERSON’S CONSTITUTIONAL RIGHTS as occurred in this case.

10

COUNTY AND STATE ENTITIES INCLUDING COURTS ARE NOT IMMUNE FROM

11

LIABILITY FOR VIOLATIONS OF THE ADA AS OCCURRED IN THIS CASE. Thus, to

12

dismiss this case with prejudice for alleged failure to state a cause of action is just plan wrong! It

13

gives the strong appearance that either the magistrate judge is biased and unable to provide a fair

14 and impartial evaluation of the action and/or that the District Court is trying to keep disabled
15
16

plaintiffs out of court without regard to the merit of any cause of action.
The hard working legal assistants) need to actually READ THE FIRST AMENDED

17

COMPLAINT in relation to attorney practice manuals it tracks meeting the elements for each

18

cause of action; as well as, the majority pages of FACT supporting the causes of action; where

19

defendants acted in concert per retaliatory agreement to prejudice plaintiff! An unaccessible

20 bathroom and other court facilities is actionable as is retaliation for accessibility complaints.
21

Retaliatory criminal charges for objecting to denial of access and accommodation is actionable;

22 and even a violation of U.S.C section 1983; where the citation thereof, was apparently
23

disregarded by the magistrate judge. The hiring of a judge’s girlfriend in a court clerk position -

24 without the required search - instead of a more qualified person of age; such as plaintiff, is
25

actionable. The District Court’s sole reliance on 1983 is wrong. And as the magistrate judge

26 said, all filings from this plaintiff are to be “disregarded,” is really wrong. The First Amended
27
28

7

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 8 of 99
1

Complaint fully states at least one cause of action and should not have been dismissed with

2

prejudice.

3
4

THIS COURTS NEEDS TO ENSURE THAT EFFECTS OF ILLNESS AND

5

PERMANENT DISABILITY DO NOT BECOME THE MEASURE OF DENYING

6

ACCESS TO THE COURT AND DUE PROCESS IN THIS COUNTRY; as occurred for

7

plaintiff in this action. Plaintiffs physicians have stated that the inability to meet court

8

time and other expectations is not willful; but a problem related to her medical condition

9

and that counsel should be appointed (See Medical Statements under Seal; in particular,

10

Dr. Apperson 8/23/18). The failure to appoint counsel, is also NOT a reason to dismiss an

11

action with prejudice.

12
13
14

The statements of fact and law set forth above are incorporated by reference into the
Statement of Facts and Law on Appeal set forth below:

15
16

STATEMENT OF FACTS AND LAW ON APPEAL

17
18

ABUSE OF DISCRETION / ERROR OF LAW: DENIAL OF LEAVE TO AMEND AND

19

DISMISSAL WITH PREJUDICE BASED ON UNFOUNDED FACTS/AUTHORITY RE

20

“FAILURE TO STATE A CLAIM” UNDER 28 U.S.C. SECTION 1915:

21

CONSTITUTIONAL VIOLATION / DENIAL OF ACCESS TO COURT / MANIFEST

22

INJUSTICE RE APPEARANCE OF DISCRIMINATORY BIAS AGAINST PRO SE

23

PLAINTIFFS WITH DISABILITY AND/OR VEXATIOUS LITIGANT “STIGMA” IN

24

CASE WITH MERITORIOUS FACTS/CAUSEfS^ OF ACTION: AND. DENIAL OF

25

MOTION TO APPOINTMENT COUNSEL.

i
i

26
27
28

8

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 9 of 99
1

The FIRST AMENDED COMPLAINT (FAC) (ECF 38) filed May 13,2018 in this

2

substantial in forma pauperis ADA/civil rights action was denied leave to amend and

3

DISMISSED WITH PREJUDICE (ECF 53) and Judgment (ECF 54) entered thereon October

4

15,2019 for “FAILURE TO STATE A CLAIM:” at the screening stage under 28 U.S.C. 1915;

5

in what appears to be abuse of discretion and error of law through prejudicial disregard of

6

authority under said statute and in contravention of approximately 140 pages of FACTS

7

supported by 19 pages of documentary evidence; INCORPORATED INTO THE COMPLAINT

8

as authorized by law, regarding each defendant relating directly to each of the 14 causes of action

9

set forth in the FAC upon which the action is based; which clearly show that the facts stated

10

constitute good cause to amend and constitute at least one cause of action that would work

11

against a dismissal of the action; in particular, “with prejudice.”

12

The facts with exhibits and each cause of action identifies with particularity the

13

defendants) to which each applies. The facts and causes show acts by defendants in

14

concert/agreement to knowingly violate plaintiffs constitutional and civil rights in retaliation for

15

plaintiffs protected conduct; in particular, the noticed right to sue letter issued by the California

16

Department of Fair Employment and Housing.

17

A full and complete reading of the FAC tends to indicate that the magistrate judge

18

findings and recommendations are not based on actual fact and authority; but appear to be based

19

on ire related to plaintiffs request to vacate the referral (The District Judge failed to rule on the

20

request to vacate the referral.) and/or discriminatory bias against pro se plaintiffs with disability

21

and/or vexatious litigant “stigma” from over 20 years ago, related to this particular plaintiff with

22

an apparent agenda designed to keep said class of persons and/or plaintiff out of the District

23

Court; as would tend to be indicated by an apparent failure to actually read the entire complaint

24

and/or misconstruing “cherry-picked” sentences attributed to only one cause of action, Section

25

1983, to questionably precipitate the dismissal. Even the causes under 1983 are not correctly

26

identified on the facts and grounds upon which the statute is applied. Remarkably, the magistrate

27
28

9

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 10 of 99
1

judge makes reference to Section 1983 comments regarding the original complaint, which are not

2

applicable to the FAC; in particular, as the FAC clearly shows the reference is to only to Section

3

1983 for the “linkage” argument without regard to the fact that the comments were essentially

4

erroneous in other parts by reason of failure to apply the law under the ADA. Thus, even the one

5

claim out of which each defendant arises is satisfied; in particular, as related to “series of

6

transactions or occurrences” and there is an ADA retaliation and constitutional “question of law

7

or fact common to all defendants.”

8
9

As set forth in the FAC under Jurisdiction on page 4, the FAC states: Plaintiff brings this
action under the American’s with Disability Act, 42 U.S.C. sections 12101,12203

10

RETALIATION et seq. as amended (“ADA”) for discrimination based upon disability, failure to

11

accommodate, failure to protect, and retaliation; Section 504 of the Rehabilitation Act of 1973,

12

as amended; 42 U.S.C. section 1985 (CONSPIRACY deprivation of civil rights); 42 U.S.C.

13

1986; 29 U.S. C. 626(c)(1) [Age Discrimination in Employment Act of 1967 et seq.]; 42 U.S.C.

14

section 12133 which incorporates the provisions of 29 U.S.C. section 794a, for violation of Title

15

II of the ADA; 42 U.S.C. 1983, Constitutional violations under the First, Fourteenth, Eighth

16

Amendments DENIAL OF DUE PROCESS, EQUAL PROTECTION, ACCESS TO THE

17

COURT; and violations of the California State Constitution, Civil Code sections 51, 51.7, 52.1,

18

52.3,54 et seq., Government Code Section 12940(h) et seq. California State claims for

19

defamation/slander/misrepresentation, false arrest/imprisonment, assault and battery, intentional

20

and negligent infliction of emotional distress, negligence, invasion of privacy, violation of State

21

and Federal Public Records Acts; Intentional Interference with Economic

22

Advantage/Relationships and Conspiracy regarding all above stated causes.

23

Essentially, NONE of the above causes were actually subject to analysis by the magistrate

24 judge on the facts and authority related thereto and even the Section 1983 causes are not stated
25

correctly by the Magistrate Judge on the actual facts and causes to which the statute applies; as a

26

full reading of the FAC would show and raise a viable issue for adjudication. (See pages 60-64

27
28

10

L

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 11 of 99
1

re Fourth Cause of Action re Conspiracy to Interfere with Rights with specified Constitutional

2

Violations and pages 76-78 re Twelfth Cause of Action re malicious prosecution (retaliatory

3

arrest/false charges & Fourth Amendment violations).

i
i

i

4

In instant appeal, the constitutional violations running to the merits of the civil rights

5

complaint in this case, are not in issue; the District Court having made no factual/legal

6

determination on the merits of anv claim therein. No specific defendant was identified or

7

stricken on ground of immunity. Under the ADA and related statutes, the claim of immunity as

8

alleged by the Magistrate Judge under Section 1983 does NOT apply. They are arguably liable

9

under the facts of this case. No specific cause was identified or stricken as lacking merit. Based

10

on attorney practice manuals and authorities expressing requirements re fact and law, plaintiff is

11

informed and believes that the facts and law support each of the claims stated. And if there is a

12

defect, that notice thereof from the Court with leave to amend should have been granted.

13

The denial of leave to amend and dismissal with prejudice appears to be more likely

14

based on bias and/or limitations of disability; than any alleged “failure to state a claim.” Thus,

15

appointment of counsel would appear to have been appropriate throughout the process of the case

16

to avoid a dismissal.

17

Although no specific finding was made that any cause or the entire complaint was

18

“frivolous,” a dismissal with prejudice gives that erroneous impression; which should not have

19

issued in instant case.

20

Before a District Court may dismiss an informa pauperis complaint with prejudice, the

21

District Court must find that the plaintiff has engaged in “conscious or intentional acts or

22

omissions.” Harris v Cuyler, C.A.3 (Pa.) 1981,664 F2d 388. There are no such findings in

23

instant case.

i
i

24

25
26

Pro se complaints must be liberally construed and can be dismissed only if face of

i

complaint shows insuperable bar to relief. Holt v Caspari, C.A.8 (Mo.) 1992, 961 F2d 1370.
Under Section 1915 a complaint should not be dismissed for failure to state a claim

27

28

11

k

L

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 12 of 99
1

unless it appears beyond doubt that the plaintiff could prove no set of facts in support of his/her

2

claim which would entitle him/her to relief. Montana v Commissioner Court, C.A. 5(Tex) 1981,

3

659 F2d 19.

4

An informa pauperis complaint can only be dismissed where there is indisputable

5

meritless legal theory or on clear baseless factual contentions. McClendon v Turner, W.D. Pa.

6

1991,765 F.Supp251.

7

Nietzke, 490 U.S. 319 advises that a section 1915 dismissal is only proper if the legal

8

theory or the factual contentions lack an arguable basis indicating that the purpose ofthe in forma

9

pauperis statute is to ensure equality of consideration for all litigants. Plaintiff in instant case has

10

not been provided with equal consideration for all litigants; having been treated differently by

11

reason of her limitations of disability and “stigma.”

12

The general provisions of law under Section 1915 were not afforded to plaintiff. As

13

stated in plaintiffs motion under 59e/60b, which was NOT addressed properly as under 59e, the

14

following was argued:

15

“Although 28 U.S.C. section 1915 provides for dismissal of an action that is “frivolous,”

16

a district court may deem an in forma pauperis complaint “frivolous” only if it lacks an

17

arguable basis in either law or in fact: in other words, dismissal is only appropriate for a claim

18

based on an indisputable merit-less legal theory and the frivolousness determination cannot serve

19

as a fact finding process for the resolution of disputed facts. Fogle v Pierson, CA10 (Colo.)

20

2006,435 F3d 1252, Milligan v Archuleta, CA10(Colo.) 2011,659 F3d 1294. Accordingly,

21

where as in instant case, the Magistrate Judge made no determination on the facts/merits,

22

adopting the recommendation of dismissal with prejudice is error.

23

A dismissal with prejudice deprives plaintiff of her constitutional right to seek redress

24

from the court, which appears to be a biased Magistrate Judges’ intention, not based on fact or

25

law; but improper preconceived opinion, based on extrajudicial sources and/or hostile bias and

26

stigma against persons in plaintiffs protected class; and thus, a constitutional violation.

27
28

12

•

j

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 13 of 99
1

Were there anything the Court believed was in some way improper, then notice of intent

2

to strike some specific part is available and/or to amend. However, nothing has been specified

3

that would give notice of any defect subject to being stricken.

4

Attorney practice manuals, such as California Forms of Pleading and Practice and its

5

equivalent Federal pleading forms, regularly repeat essential element language of causes with the

6

different facts inserted. This does NOT make the claims/complaints “frivolous.” It only helps

7

practitioners evaluate the facts to insert them appropriately to meet the court’s pleading

$

requirements and jury instructions. On information and belief, plaintiffs causes meet both the

9

general form pleading requirements and have the facts necessary to prevail perjury instructions.

10

i

Court’s are in good faith, generally believed to protect citizens from harm, not give the

11

“green light” to further biased retaliatory abuse and prejudicial harm through “dismissal” of

12

citizen pleas for help; in order to allow the offenders to proceed with the intended abuse and

13

destruction intended toward one who had the courage to “stand up” to the discrimination, false

14

and defamatory representations/media comment, infliction of physical harm and emotional

15

distress, saying “no more!” PLEASE!

I

16

17 Error re Application of “Frivolous” to Dismiss:
18

As stated above, although 2S U.S.C. section 1915 provides for dismissal of an action that

19 is “frivolous,” a district court may deem an in forma pauperis complaint “frivolous” only if it
20 lacks an arguable basis in either law or in fact: in other words, dismissal is only appropriate
21

for a claim based on an indisputable merit-less legal theory and the frivolousness determination

22 cannot serve as a fact finding process for the resolution of disputed facts. Fogle v Pierson, CA10
23

(Colo.) 2006,435 F3d 1252, Milligan v Archuleta, CAl0(Colo.) 2011,659 F3d 1294.

24 Accordingly, where as in instant case, the Magistrate Judge findings do not present analysis of
25 any fact/law per cause, adopting the recommendation of dismissal is error and an apparent abuse
26 of discretion.
27
28

13
I
i

i

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 14 of 99
1

Cornell Law School presents on line its Wex Legal Dictionary in which it defines

2

“frivolous:” In the legal context, a lawsuit, motion, or appeal that lacks any basis and is intended

3

to harass, delay or embarrass the opposition... Judges are reluctant tofind an action frivolous,

4

based on the desire not to discourage peoplefrom using the courts to resolve disputes. It is

5

hoped this Court agrees and does not abide discrimination/retaliation implicating persons with

6

disability as “frivolous.” Fairness, impartiality, due process and equal protection should apply to

7

all “persons” as the Constitution mandates.

8
9
10

Error re Rendition hv Magistrate Judge of Prior Complaint and Amended Complaints,
As stated above, Judicial Notice is hereby requested of each OBJECTION raised to the

11

false and misleading representations of issues regarding Plaintiffs prior complaints therein. The

12

Magistrate Judge appears not to have read the Objections and ignored the medical good cause

13

NOT to make the findings alleged. No ruling on request for judicial notice issues.

14
15

Error/Abuse of Discretion Not to Appoint Counsel or Mention Good Cause Medical

16

Limitations; e.g. exceptional circumstances.

17

Sua Sponte Appointment of Counsel for good cause. Plaintiff has requested

18

appointment of counsel in this action with good cause appearing; yet, no such issued. Sua sponte

19

appointment is available under the circumstances in this case and plaintiff’s limitations.

20

The Magistrate Judge appears to have essentially ignored the analysis for appointment of

21

counsel sua sponte and/or upon renewal of prior requests. If an attorney has leave to file a

22

second amended complaint, it is an abuse of discretion to also not give a pro se Plaintiff the right

23

to so amend in the same case! In fact, it is unusual that a second amended complaint is not

24

granted. THERE IS NOT EVEN THE MENTION OF THE MEDICAL VERIFICATION IN

25

SUPPORT OF LEAVE TO AMEND OR APPOINT COUNSEL, OR EVEN TO AVOID A

26

DISMISSAL FOR MEDICAL CAUSE IN CONTRAVENTION OF THE ALLEGATIONS

27
28

14

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 15 of 99
1

MADE FOR DISMISSAL! The medical circumstances in this case are exceptional

2

circumstances for appointment of counsel, not for the frustration of the Court; so a dismissal

3

must follow, where no such is even mentioned as having been filed. WHERE IT APPEARS

4

THAT THE MEDICAL EVIDENCE FILED UNDER SEAL WAS NOT CONSIDERED BY

5

THE MAGISTRATE JUDGE, ADOPTING THE FINDINGS IS FUNDAMENTALLY

6

WRONG, ERROR AND A POSSIBLE INADVERTENT ABUSE OF DISCRETION.

7

Where there is no analysis of the case on the merits of each cause, there is no recognition

8

of good cause not to dismiss by medical impossibility. Any one of the medical conditions or the

9

nexus between permanent progressive disability limitations and difficulties and ability to perform

10

timely within the requirements of the Court; should receive accommodation, NOT dismissal. If

11

this is confusion, then that too is evidence of the limitations of disability; for which, no Plaintiff

12

should be punished by denial of access to the court to redress serious grievances as set forth in

13

this action. No defendant should “get away with” their misconduct because of Plaintiffs

14

medical detriment. Appointment of counsel to resolve any discomfort of the Court is appropriate

15

and is renewed here.”

16
17

An issue is the question of whether appointment of counsel should have and should
issue in this action.

18
19

Bv reason of limited time to mail this anneal for receipt on or before April 6.2020.

20

plaintiff must incorporate bv reference here the issues raised in her motion under 59e/60b:

21

in particular- because there appears to be an error of law in the magistrate order granting

22

additional time to appeal to April 10.2020: where the statute limits the time to 30 davs

23

being April 6.2020. Thus, there is the appearance of questionable intent to potentially

24

prejudice plaintiff with denial of an appeal should she rely to her detriment on said minute

25

order February 28.2020 fECF 621 bv filing after April 6.2020. If the later date is viable.

26

then additional points will be raised hereafter.

27
28

15

a

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 16 of 99
1

Plaintiff has stated a claim sufficient to warrant consideration on appeal for

2

reversal of the dismissal with prejudice, grant of leave to amend and appointment of

3

counsel.

4
5

[A PRINTER ERROR OCCURRED CAUSING INABILITY TO EDIT IN TIME
PRIOR TO MAILING]

6
7

This case presents the Ninth Circuit with an opportunity to tell its lower courts that

8

persons deemed “vexatious litigants” and persons with disabilities, are still entitled to due

9

process, constitutional protections and the rights and benefits provided under the laws of the

10
11

United States and its State courts.
It is the right to proceed in forma pauperis on a proper showing pursuant to 28 U.S.C.

12

section 1915, that this court is urged to protect against pre-determined opinion bias of “frivolous”

13

attributed to pro se complaints filed by persons with disability and from the inherent “stigma”

14

attributed to such parties, precipitating unwarranted dismissals. It appears that instant action met

15

the wrongful guillotine of bias and hostile opinion pertaining to plaintiff, rather than any issue of

16

fact or law.

17
18

THIS COURTS NEEDS TO ENSURE THAT EFFECTS OF ILLNESS AND

19

LIMITATIONS OF DISABILITY DO NOT BECOME THE MEASURE OF DENYING

20

ACCESS TO THE COURT AND DUE PROCESS IN THIS COUNTRY; as occurred for

21

plaintiff in this action. Plaintiffs physicians have stated that the inability to meet court

22

time and other expectations is not willful; but a problem related to her medical condition

23

and that counsel should be appointed (See Medical Statements under Seal; in particular,

24

Dr. Apperson 8/23/18). The failure to appoint counsel, is also NOT a reason to dismiss an

25

action with prejudice. For all the harm plaintiff has suffered trying to “stand up for justice” in

26

exercise of civil rights under the law, a denial of review would be a painful manifest injustice;

27
28

16

t

*

Case 2:12-cv-01984-MCE-AC Document 63 Filed 04/03/20 Page 17 of 99

i/

1

essentially saying, such abuse is warranted not only for plaintiff; but all similarly situated

2

plaintiffs with disability.

3

Assistance by appointment of counsel for both the process of permission here and appeal

4 is respectfully requested. The motion with statement is attached.
5

Your kind consideration is appreciated.

6

Plaintiff respectfully submits: The issues in this appeal are substantial and warrant

7

further review and appointment of counsel.

8
9

Dated: April 2,2020

10

PAMA. MCCOLM
Flaintiffand Appellant, pro se

11
12
13
14
15
16
17
18
19
20

21
22
23
24
25

26
27

28

17

i

